Office of Audits
Office of Inspector General
U.S. General Services Administration




Limited Scope Audit of Task
Order NP4700101051 Funded
by the American Recovery and
Reinvestment Act of 2009
Report Number A110024/Q/A/P12007
May 2, 2012
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                    REPORT ABSTRACT
                             Limited Scope Audit of Task Order NP4700101051 Funded by the
OBJECTIVES                   American Recovery and Reinvestment Act of 2009
 The objective of our        Report Number A110024/Q/A/P12007
 audit was to determine if   May 2, 2012
 the National Capital        WHAT WE FOUND
 Region Client Support       We identified the following during our audit:
 Center awarded and
 administered Task           Finding 1 – The improper obligation of funds resulted in violations of
 Order NP4700101051 in       the bona fide needs rule and the Antideficiency Act (ADA).
 accordance with federal     Finding 2 – Accepting funds near the end of the fiscal year resulted in
 regulations.                an inadequate amount of time to solicit competition and award the task
                             order.
                             Finding 3 – Relying on a poorly developed Independent Government
                             Cost Estimate compromised the price reasonableness determination.
                             Finding 4 – Sharing information with the contractor put the Government
                             at a disadvantage for receiving the best price.
                             Finding 5 – Lack of approval by legal counsel on high-dollar
                             acquisitions affects the integrity of the award.
                             WHAT WE RECOMMEND
                             We recommend that the Regional Commissioner of the National
                             Capital Region Federal Acquisition Service:
                             Determine whether you agree there is a reportable ADA violation.
                              a. If you agree there is a reportable ADA violation, coordinate with
                                 Regional Counsel and the General Services Administration’s Office
                                 of General Counsel to take appropriate action for reporting the ADA
                                 violation.
                              b. If you disagree there is a reportable ADA violation, request an
Acquisition Programs
                                 opinion from the Department of Justice’s Office of Legal Counsel
Audit Office (JA-A)
                                 on whether the actions outlined in this report constituted an ADA
241 18th Street South,
                                 violation.
Suite 607
Arlington, VA 22202          MANAGEMENT COMMENTS
(703) 603-0189               National Capital Region management disagreed with the majority of
                             our findings. A summary of management’s comments are included in
                             the body of the report, followed by the Office of Inspector General’s
                             response. See Appendix B for management’s full response.


                                                  i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             5/2/2012
 TO:               Alfonso J. Finley
                   Regional Commissioner, Federal Acquisition Service
                   National Capital Region (WQ)

 FROM:             Lindsay S. Mough
                   Audit Manager
                   Acquisition Programs Audit Office (JA-A)
 SUBJECT:          Limited Scope Audit of Task Order NP4700101051 Funded by the
                   American Recovery and Reinvestment Act of 2009
                   A110024/Q/A/P12007

This report presents the results of our audit of Task Order NP4700101051 Funded by
the American Recovery and Reinvestment Act of 2009. Our findings and
recommendations are summarized in the Report Abstract. Instructions regarding the
audit resolution process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

 Lindsay Mough       Audit Manager       lindsay.mough@gsaig.gov (703) 603-0269
 Jacqueline Ogle     Auditor-In-Charge   jacqueline.ogle@gsaig.gov (703) 603-0220

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




                                            ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – The improper obligation of funds resulted in violations of the bona fide
            needs rule and the Antideficiency Act...................................................... 2
                 Recommendation 1 ................................................................................. 5
Finding 2 – Accepting funds near the end of the fiscal year resulted in an inadequate
            amount of time to solicit competition and award the task order ............... 5
Finding 3 – Relying on a poorly developed Independent Government Cost Estimate
            compromised the price reasonableness determination ........................... 6
Finding 4 – Sharing information with the contractor put the Government at a
            disadvantage for receiving the best price ................................................ 7
Finding 5 – Lack of approval by legal counsel on high-dollar acquisitions affects the
            integrity of the award ............................................................................... 8


Conclusion.............................................................................................................. 10

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ...................................................................... C-1




                                                               iii
Introduction
The American Recovery and Reinvestment Act (Recovery Act) of 2009 was enacted to
create new jobs, spur economic activity, and foster accountability and transparency in
government spending. To help achieve these goals, the Recovery Act made $275 billion
available for federal contracts, grants, and loans.

With the enactment of the Recovery Act, the Federal Acquisition Service (FAS)
experienced an increase in business volume as other federal agencies came to the
Office of Assisted Acquisition Services Client Support Centers (CSC) for acquisition
support. 1

In an effort to support the Recovery Act’s commitment to accountability, the Office of
Inspector General (OIG) for the General Services Administration (GSA) provides
oversight of Recovery Act funds by monitoring task orders managed by the Office of
Assisted Acquisition Services. As part of this oversight, we identified that the National
Capital Region CSC awarded Task Order NP4700101051 at the end of fiscal year (FY)
2010 for $6,679,433.60. The purpose of the task order was to obtain an Independent
Verification and Validation of the products, services, and systems that will be installed
for the information technology (IT) infrastructure task order during the consolidation of
the Department of Homeland Security’s (DHS) headquarters. The base year of the task
order was funded by two-year Recovery Act funds in the amount of $1,471,698.50 that
expired at the end of FY 2010; as such we initiated a review to ensure that the funds
were obligated properly.

The objective of our audit was to determine if the National Capital Region CSC awarded
and administered Task Order NP4700101051 in accordance with federal regulations.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
  The Office of Assisted Acquisition Services provides federal agencies with assisted acquisition solutions
through regional CSCs. The CSCs interface with agencies to define requirements and prepare and
manage task and delivery orders.


                                                     1
Results
During our audit, we identified a number of issues that we believe warrant the attention
of FAS in the National Capital Region.

Finding 1 – The improper obligation of funds resulted in violations of the bona
fide needs rule and the Antideficiency Act.

The National Capital Region CSC modified the period of performance of a severable2
services task order to exceed one year and extend past the period of availability of the
funds. This modification violated the bona fide needs rule of fiscal law 3 and, accordingly,
the Antideficiency Act (ADA). 4

The bona fide needs rule states that an annual appropriation may only be obligated to
meet a legitimate, or bona fide, need arising during the period of availability of the
appropriation and precludes contracts from crossing fiscal year lines. As an exception,
41 U.S.C. 3902(a) authorizes contracts for severable services to begin in one fiscal year
and end in the next, as long as the contracts do not exceed one year. The bona fide
needs rule also applies to multiple-year appropriations, which are subject to the same
principles applicable to annual appropriations. Applying these principles, the period of
performance of a severable services contract can exceed one year only if the period of
performance is within the period of availability of the multiple-year appropriation.

The ADA prohibits government agencies from involving the Government in a contract or
obligation before an appropriation is made. If it is determined that there is a violation of
the ADA, the agency head shall report immediately to the President and Congress all
relevant facts and a statement of actions taken.

The National Capital Region CSC awarded the severable services task order with a 12-
month period of performance beginning on September 30, 2010, using two-year
Recovery Act funds. The task order was subsequently modified to add two more months
of performance, through November 29, 2011, and into FY 2012. 5 This violated the bona
fide needs rule as the period of performance exceeds one year and extends past the
period of availability for the Recovery Act funds. Accordingly, the National Capital
Region CSC violated the ADA by making an obligation after the availability of the
Recovery Act funds and in advance of any FY 2012 appropriations.

Violating the bona fide needs rule and the ADA affects the integrity of acquisition
support provided by the National Capital Region CSC. This could potentially diminish
customer agency confidence and negatively affect the CSC’s business. It is essential

2
  Severable services are continuing and recurring in nature, and value is received at the time the service
is rendered.
3
  Title 31 U.S.C. Section 1502(a)
4
  Title 31 U.S.C. Section 1341 et seq.
5
  We notified the National Capital Region CSC of the ADA violation and they subsequently modified the
period of performance back to 12 months.


                                                     2
that the National Capital Region CSC review its internal processes to ensure that similar
instances do not occur.

Management Comments

National Capital Region management believes that the funding authority for the task
order in question was the Acquisition Services Fund, a no-year revolving fund.
Therefore, they contend that neither the bona fide needs statute nor the ADA was
violated. Management submits that even if the bona fide needs statute or 41 U.S.C.
390[2] had been violated, modifying the task order to reduce the period of performance
to 12 months cured those violations, and an ADA violation did not occur. See
Appendix B for management’s full response.

OIG Response

We disagree with FAS’s assertion that the funds were no-year funds because the
Acquisition Services Fund was used to fund the task order.

The crux of FAS’s response is that these obligations were made against the Acquisition
Services Fund, a no-year revolving fund, so the bona fide needs test does not apply.
However, money put in a revolving fund retains the same purpose and time limitations
as the original appropriation. Specifically, except as provided by law, an amount
authorized to be withdrawn and credited to a revolving fund is available for the same
purpose and subject to the same limitations provided by the law appropriating that
amount, regardless of whether the appropriated funds are transferred in before or after
the services are performed. See Matter of: Implementation of the Library of Congress
FEDLINK Revolving Fund, B-288142 (September 6, 2001).

Moreover, GSA and DHS clearly intended to apply the purpose and time limitations
applicable to the DHS funds to the acquisition by GSA. Both DHS and GSA stated the
bona fide needs test applied to the multiple-year Recovery Act appropriated funds used
to fund these services in the Reimbursable Work Authorization and the Inter Agency
Agreement.

Accordingly, the Recovery Act funds could not be obligated in FY 2012 and National
Capital Region CSC’s action in extending the period of performance into FY 2012 was
improper.

To find an ADA violation, we have to conclude that there were no available funds for the
FY 2012 obligation. FAS states it could have used the Acquisition Services Fund to pay
the FY 2012 obligation and then sought reimbursement from DHS. We do not have any
legal authority that clearly disputes this assertion. The statute that authorizes the
Acquisition Services Fund, 40 U.S.C. § 321, states that if payment is not made in
advance, then the Administrator “shall be reimbursed promptly out of amounts of the
requisitioning agency in accordance with accounting procedures approved by the
Comptroller General.” This statute presumes that the requisitioning agency will have the



                                           3
funds to reimburse FAS. However, DHS may, or may not, receive appropriations
adequate to pay that obligation. Further, we do not believe that FAS’s interpretation of
40 U.S.C. § 321 is consistent with the intent of the ADA. See e.g., letter from Secretary
of Health and Human Services reporting ADA violations (July 14, 2011),
http://www.gao.gov/ada/GAO-ADA-11-23.pdf. In that letter, one type of violation
reported by the Secretary was “forward funding,” which is similar to the situation here.
The Secretary described the problem as follows.

      As a general rule, severable services are the bona fide need of the fiscal year in which
      they are performed. For obligation purposes, except in accordance with express
      statutory authority, severable services are charged to the appropriation available at the
      time the services are performed. Thus, in a contract for severable services, base and
      option periods are funded out of the appropriation available at the time of contract award
      or option exercise. However, such funds are available for up to twelve months, in
      accordance with the statutory exception at 41 U.S.C. § 3902, which permits agencies to
      obligate funds current at the time of contract award to fund a severable services contract
      and cross fiscal years, provided the performance period does not exceed one year.

      The contracts referenced on the attachment as "forward funded" all suffered from the
      same defects. That is, agencies obligated annual appropriations to cover performance in
      excess of twelve months and additionally in some instances, to use current year
      appropriations to fund contract performance that would not begin until a subsequent
      fiscal year. As noted, these types of "forward funding" are problematic, as annual funds
      obligated on a contract for severable services are only available for twelve months after
      obligation (i.e., after contract award or option exercise). Thus, on these contracts, annual
      funds were used not only to fund the bona fide need for the year in which the obligation
      was made, but also to fund the bona fide need of future fiscal years. As a result,
      agencies obligated the government to acquire severable services for future fiscal years
      in which no appropriation had yet been made, and thus obligated funds in advance of
      appropriations which could be used for such services. In addition, agencies also
      obligated funds to acquire severable services in an amount that exceeded and could be
      charged to the annual appropriation in question.

We question whether FAS can, consistent with the ADA, use the Acquisition Services
Fund to fund severable services contracts where it expects to be reimbursed but does
not have assurance that the requisitioning agency will receive appropriated funds in the
future to reimburse FAS. We believe that FAS may rely on reimbursement only when
there is assurance that the requisitioning agency will have the money available. We do
not believe that was the case here.

We also disagree with FAS’s discussion of curing an ADA violation and do not believe
an ADA violation could be cured in the fashion FAS describes. Two of the three cases
cited by FAS support FAS’s position that a “cured” violation need not be reported.
However, neither case is applicable to the current situation. No accounts were adjusted
here—instead, a period of performance was adjusted. This was not a violation of the
“Purpose” provisions of appropriations law—this was a violation of the “Time”
provisions. In the original task order, where there is no appropriation available to cover
the FY 2012 services, there is no account to adjust. Therefore, this situation cannot be



                                               4
cured and must be reported. See Department of the Army—Escrow Accounts and the
Miscellaneous Receipts Statute, B-321387 (March 30, 2011) (the Army incurred
violations in certain contracts in 2006, but in 2009 cured the violations by amending the
indemnification clauses in those contracts. GAO held that even though the Army
corrected the violations, it still had to file an ADA report); see also DOD Use of
Operations and Maintenance Appropriations in Honduras, B-213137 (June 22, 1984)
(the Army could not cure ADA funding violations with respect to obligations incurred in a
previous fiscal year unless funds available from that previous fiscal year were available
for adjustment).

We are unaware of a case specifically on point with the issue here, where FAS asserts
that it could use funds from the Acquisition Services Fund (as opposed to the no-year
revolving fund discussed in B-288142) and seek reimbursement (as opposed to
advance payments discussed in B-288142) from DHS. Given our concerns with FAS’s
arguments that this was not an ADA violation, we recommend FAS request an opinion
on whether this constituted an ADA violation from the Department of Justice’s Office of
Legal Counsel to resolve this issue.

Recommendation 1

We recommend that the Regional Commissioner of the National Capital Region Federal
Acquisition Service:

Determine whether you agree there is a reportable ADA violation.
      a. If you agree there is a reportable ADA violation, coordinate with Regional
         Counsel and GSA’s Office of General Counsel to take appropriate action for
         reporting the ADA violation.
      b. If you disagree there is a reportable ADA violation, request an opinion from
         the Department of Justice’s Office of Legal Counsel on whether the actions
         outlined in this report constituted an ADA violation.

Finding 2 – Accepting funds near the end of the fiscal year resulted in an
inadequate amount of time to solicit competition and award the task order.

The National Capital Region CSC did not have adequate time to solicit competition and
award the task order because it accepted the Recovery Act funds near the end of the
fiscal year. Acquisition Letter V-09-06 states that the decision to accept funds near the
end of the fiscal year should take into consideration the minimum time required to
contractually obligate the funds properly.

The Recovery Act funds used for this task order needed to be obligated by the end of
FY 2010. Despite this requirement, the National Capital Region CSC accepted the
funds on September 20, 2010. This allowed the National Capital Region CSC only nine
business days for the entire award process. As a result of these strict timeframes, the
solicitation period was limited to four business days. The short timeframes hindered
competition, as no proposals were received by the end of the solicitation period. The



                                           5
National Capital Region CSC extended the due date by one day, and subsequently
received only one proposal. When accepting the funds, the National Capital Region
CSC should have fully considered the minimum time interested contractors would need
to prepare and submit proposals in response to the solicitation.

The short acquisition lead time restricted competition for this task order, which may
have resulted in the Government paying more than it should have and not receiving the
best value. In order to promote adequate competition, the National Capital Region CSC
should only accept funds when it has a reasonable amount of time to solicit competition
and award the task order.

Management Comments

National Capital Region management disagrees that there was an inadequate amount
of time to solicit competition and award the task order. See Appendix B for
management’s full response.

OIG Response

In their response, management states that the task order’s services were not
considered complex, the scope was limited, and the dollar value of the procurement
was not considered substantial. However, we disagree with this assertion as the task
order was awarded to support the $2.6 billion IT infrastructure task order for the
Department of Homeland Security’s headquarters consolidation. In addition,
management states there were no requests for an extension of the closing date, which
indicates that sufficient time was allowed for the submission of quotes. However, an
extension was in fact provided because no proposals were received on the original due
date. We maintain that more time was necessary for interested contractors to prepare
and submit proposals in response to the solicitation.

Finding 3 – Relying on a poorly developed Independent Government Cost
Estimate compromised the price reasonableness determination.

The contracting officer used an inadequate Independent Government Cost Estimate
(IGCE) to evaluate pricing, thereby compromising the price reasonableness
determination. The price analysis is particularly important given that there was no
competition. 6

An IGCE should reasonably represent the amount the Government expects to pay for
the proposed effort. As such, the IGCE should be developed using the labor categories
and hours the Government anticipates will be needed to accomplish the overall task
order requirements.



6
 Competition normally establishes price reasonableness and satisfies the requirement to perform a price
analysis through a comparison of proposed prices.


                                                   6
However, in this case the National Capital Region CSC used the most senior level labor
rates on Schedule 871 to “back into” the labor hours from the task order’s total budget
to develop the IGCE. Given that a comparison of the proposal to the IGCE was the only
price analysis technique used, the contracting officer’s price reasonableness
determination cannot be relied upon.

Comparing the proposal price to a poorly developed IGCE affects the integrity of the
task order’s price reasonableness determination. When relying on the IGCE to
determine price reasonableness, the contracting officer should ensure it is developed
based on the specific task order requirements.

Management Comments

National Capital Region management disagrees that the IGCE was poorly developed or
compromised the price reasonableness determination. See Appendix B for
management’s full response.

OIG Response

In their response, management quotes the draft price negotiation memorandum that
states the IGCE was not used for comparison to the contractor’s quoted labor hours
because it does not warrant a level of confidence in its accuracy. However, the final
price negotiation memorandum states that the IGCE was in fact used to evaluate the
proposal. Management also states that the ordering activity considered the level of
effort and mix of labor/skill categories proposed and made a determination that the total
price was reasonable for the effort. However, there is no indication that other price
evaluation techniques outside the IGCE comparison were used to evaluate the labor
mix and level of effort. Therefore, we maintain that use of the poorly developed IGCE
compromised the price reasonableness determination.

Finding 4 – Sharing information with the contractor put the Government at a
disadvantage for receiving the best price.

The contracting officer provided the contractor with the task order’s not-to-exceed (NTE)
amount to signify the scope of the requirement. As a result, the contractor was given the
opportunity to propose a price slightly below the NTE amount. Sharing this information
should not be necessary as the statement of work should be specific enough to
describe the scope of the task order.

The solicitation contained the task order’s NTE amount. Consequently, the contractor
offered discounts off its schedule rates bringing the total proposed price to 0.77 percent
below the NTE amount. The National Capital Region CSC stated that providing the NTE
amount is a best practice 7 used to depict the scope of work. However, by providing the


7
 National Capital Regional counsel created a solicitation template to assist acquisition personnel in
preparing solicitations. This template contained a space for the NTE amount.


                                                     7
NTE amount to potential contractors, the contracting officer cannot be assured that the
Government is receiving the best price.

Contractor independence provides integrity to the acquisition process and can help
ensure that the Government is receiving fair and reasonable pricing on the task order as
a whole. The National Capital Region CSC should not provide contractors with the NTE
amount as this practice could result in the Government paying a higher price.

Management Comments

Management agrees that the task order total NTE amount should not be included in the
solicitation. See Appendix B for management’s full response.

OIG Response

Although management agrees with this finding, they stated that the individual preparing
the solicitation misunderstood the template instructions for solicitation preparation.
However, the template includes a placeholder to be filled in by GSA for the total NTE
amount for the base period and each option period (see Figure 1). We suggest the
template be modified, as this could create confusion for any individual preparing the
solicitation.

         Figure 1 – Excerpt from National Capital Region CSC Solicitation Template




Finding 5 – Lack of approval by legal counsel on high-dollar acquisitions affects
the integrity of the award.

The National Capital Region CSC awarded this $6 million task order without a legal
review. In accordance with a July 31, 2006, memorandum signed by the FAS
Commissioner, a legal review is required for all task orders over $5 million.

While the contracting officer and acquisition director reviewed the acquisition, a formal
legal review did not occur. The National Capital Region CSC requested a legal review
on the date of award; however, a note in the task order file stated that the National
Capital Region legal counsel was unavailable on that date. By accepting the funds near
the end of the fiscal year, the National Capital Region CSC could not provide adequate
time for the proper review of the task order.

Approval from legal counsel provides integrity to the entire award process. When
awarding high-dollar value task orders, the National Capital Region CSC should ensure
adequate time is available for legal counsel to review the task order.




                                            8
Management Comments

Management explained that failure to obtain a legal review is not a violation of law or
regulation. Rather, failure to obtain legal review is merely a failure to comport with FAS
internal policy. See Appendix B for management’s response.

OIG Response

Although obtaining a legal review may not be required by law, it is required by FAS.
Internal policy is still a requirement and obtaining a legal review is a sound business
practice.




                                            9
Conclusion
The National Capital Region CSC did not award and administer Task Order
NP4700101051 in accordance with federal laws and regulations. Specifically, we
identified a violation of both the bona fide needs rule and the ADA. These serious
violations affect the integrity of acquisition support provided by the National Capital
Region CSC. We also found that the National Capital Region CSC did not obtain a legal
review prior to award of the $6 million task order.

In addition, the National Capital Region CSC cannot ensure that the Government
received the best price for this task order because it: (1) hindered competition by
accepting funds late in the fiscal year; (2) relied solely on a flawed IGCE to evaluate
pricing; and (3) shared the task order’s NTE amount with the contractor. Given these
deficiencies, the National Capital Region CSC did not demonstrate the ability to award
and administer task orders properly. We are concerned with management’s comments
regarding the National Capital Region CSC’s contracting practices and internal
processes. As this audit was limited to the review of one task order, we are making no
additional recommendations at this time. However, we will take this area under
consideration during the Office of Inspector General’s annual audit planning process.




                                          10
Appendix A – Purpose, Scope, and Methodology
                                                        Report Number A110024/Q/A/P12007

Purpose

We initiated this limited scope audit as a result of the Office of Inspector General’s
monitoring of Recovery Act task orders managed by the Office of Assisted Acquisition
Services.

Scope

The scope of this audit is limited to the award and administration of task order
NP4700101051.

Methodology

To accomplish our objectives, we:

   •   Analyzed all documentation in the hard copy task order file and in the electronic
       acquisition system;
   •   Reviewed the Federal Acquisition Regulation;
   •   Reviewed U.S. Government Accountability Office policy and internal General
       Services Administration policy;
   •   Examined federal statutes regarding appropriated funds and fiscal law; and
   •   Held discussions with National Capital Region acquisition personnel.

Except as noted below, we conducted the audit between April 2011 and October 2011
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

As this work was performed under the continuing oversight of all Recovery Act task
orders managed by the Office of Assisted Acquisition Services, internal controls have
not been fully assessed. Only those internal controls discussed in the report have been
assessed.




                                          A-1
Appendix B – Management Comments
                                   Report Number A110024/Q/A/P12007




                        B-1
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12007




                          B-2
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12007




                          B-3
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12007




                          B-4
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12007




                          B-5
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12007




                          B-6
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12007




                          B-7
Appendix C – Report Distribution
                                                         Report Number A110024/Q/A/P12007

Regional Commissioner, Federal Acquisition Service, National Capital Region (WQ)

Regional Administrator, National Capital Region (WA)

Commissioner, Federal Acquisition Service (Q)

Regional Counsel, National Capital Region (WL)

Division Director, GAO/IG Audit Response Division (H1C)

Director, Business Analysis and Audits Division (QB0A)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                           C-1
